am
2311 Douglas Street COCKLE s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-127
ANMARIE CALGARO,
Petitioner,

Vs.
ST. LOUIS COUNTY, LINNEA MIRSCH, INDIVIDUALLY AND IN HER OFFICIAL
CAPACITY AS INTERIM DIRECTOR OF ST. LOUIS COUNTY PUBLIC HEALTH
AND HUMAN SERVICES, FAIRVIEW HEALTH SERVICES, A MINNESOTA
NONPROFIT CORPORATION, PARK NICOLLET HEALTH SERVICES,
A NONPROFIT CORPORATION, ST. LOUIS COUNTY SCHOOL DISTRICT,
MICHAEL JOHNSON, INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY
AS PRINCIPAL OF THE CHERRY SCHOOL, ST. LOUIS COUNTY SCHOOL DISTRICT, AND E..K.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of September, 2019, send
out from Omaha, NE 6 package(s) containing 3 copies of the REPLY TO OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
THOMAS BREJCHA. ERICK G. KAARDAL
THOMAS MORE SOCIETY Counsel of Record
309 West Washington Street, MOHRMAN, KAARDAL &
Suite 1250 ERICKSON, P.A.
Chicago, Illinois 60606 150 South Fifth Street,
Telephone: (312) 782-1680 Suite 3100
Email: tbrejcha@ Minneapolis, Minnesota
thomasmoresociety.org 55402

MATTHEW F. HEFFRON
THOMAS MORE SOCIETY
10506 Burt Circle,

Suite 110
Omaha, Nebaska 68114
Telephone: (402) 346-5010
Email: mheffron@bblaw.us

Subscribed and sworn to before me this 6th day of September, 2019.

Telephone: (612) 465-0927
Email: kaardal@mklaw.com

Counsel for Petitioner

1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

 

Affiant 38641
Attorneys for St. Louis County and Mirsch
Mark Steven Rubin

COUNTY ATTORNEY'S OFFICE

100 N. Fifth Avenue, W., Room 501
Duluth, MN 55802-2322

Telephone: (218) 726-2323

Email: rubinm@stlouiscountymn.gov

Attorneys for Park Nicollet Health Services
David M. Wilk

LARSON & KING

30 E. Seventh Street, Suite 2800

Saint Paul, MN 55101

Telephone: (651) 312-6521

Email: dwilk@larsonking.com

Attorneys for Fairview Health Services
William Lawrence Davidson

Joao C.J.G. De Medeiros

Paul C. Peterson

LIND & JENSEN

901 Marquette Avenue, S., Suite 1300
Minneapolis, MN 55402

Telephone: (612) 333-3637

Email: william.davidson@lindjensen.com
Email: joao.medeiros@lindjensen.com
Email: paul.peterson@lindjensen.com

Attorneys for School and Johnson
Trevor S. Helmers

Elizabeth Jill Vieira

RUPP & ANDERSON

333 S. Seventh Street, Suite 2800
Minneapolis, MN 55402

Telephone: (612) 436-4300

Email: trevor.helmers@raswlaw.com
Email: liz.vieira@raswlaw.com
Attorneys for E.J.K.

Asaf Orr

Christopher F. Stoll

NATIONAL CENTER FOR LESBIAN RIGHTS
870 Market Street, Suite 370

San Francisco, CA 94102-0000

Telephone: (415) 392-6257

Email: cstoll@nclrights.org

Email: aorr@nclrights.org

Other

Keith Ellison

Office of the Attorney General

445 Minnesota Street, Suite 1400

St. Paul MN 55101

Telephone: (651) 296-3353

No email available

Service on the Minnesota Attorney General due to the challenge to the constitutionality of a state
statute. They are not a party and have not participated to date in this matter, but must be served
pursuant to Sup.Ct.R. 29.4(c).
